fan
COCKLE eas

L ega 1B ri S fs contact@cocklelegalbriefs.com
st. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1334

BRADLEY BOARDMAN, et al.,
Petitioners,
v.
JAY R. INSLEE, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
OF ALLIED DAILY NEWSPAPERS IN. SUPPORT OF PETITION FOR CERTIORARI in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footiotes, and this
brief contains 3213 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 21st day of April, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Kena. Q. Lose Ou deaeh, bale

Notary Public Affiant 40906

     
 

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

| wlilens My Comm. Exp. September 5, 2023

 
